No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARION E. PITCH, the Personal Representative of the
Estate of ANTHONY S. PITCH, and LAURA WEXLER,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the Petition
for a Writ of Certiorari in the above-referenced case contains 8,941 words, excluding
the parts of the petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 21, 2020

J. BELL
Co insel of Record
L W. ARMSTRONG
BELL & SHIVAS, P.C.
150 Mineral Springs Drive
P.O. Box 220
Rockaway, NJ 07866
(973) 442-7900
joebell@bsblawgroup.com
TOSE H

(

Counsel for Petitioners
Marion E. Pitch and Laura Wexier

